U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

February 19, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

CIC Services, LLC v. Internal Revenue Service, et al,
S.Ct. No. 19-930

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on January 17,
2020, and placed on the docket on January 24, 2020. The government's response is due on
February 24, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including March 25, 2020, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19-0930
CIC SERVICES, LLC
INTERNAL REVENUE SERVICES, ET AL.

T. KEITH FOGG
LEGAL SERVICES CENTER OF HARVARD
LAW SCHOOL
122 BOYLSTON STREET
JAMAICA PLAIN, MA 02130
617-522-3003
KFOGG@LAW.HARVARD.EDU
DAVID W. FOSTER
SKADDEN,ARPS,SLATE,MEAGHER & FLOM
LLP
1440 NEW YORK AVENUE, NW
WASHINGTON, DC 20005-2111
202-371-7626
DAVID.FOSTER@SKADDEN.COM
K. SCOTT HAMILTON
DICKINSON WRIGHT PLLC
500 WOODWARD AVENUE
SUITE 4000
DETROIT, MI 48226-3425
313-223-3041
KHAMILTON@DICKINSONWRTGHT.COM
JEFFREY M. HARRIS
CONSOVOY MCCARTHY PARK PLLC
3033 WILSON BOULEVARD,
SUITE 700
ARLINGTON, VA 22201
703-243-9423
JEFF@CONSOVOYMCCARTHY.COM

KRISTIN E. HICKMAN
UNIVERSITY OF MINNESOTA LAW SCHOOL
285 WALTER F. MONDALE HALL
229 19TH AVENUE SOUTH
MINNEAPOLIS, MN 55455
612-625-1000
KHICKMAN@UMN.EDU
MEAGAN HORN
PRO BONO CONTRIBUTOR TO TAX CLINIC
AT THE LEAL SERVICES CENTER OF
HARVARD LAW SCHOOL THOMPSON &
KNIGHT, LLC
1722 ROUTH STREET
SUITE 1500
DALLAS , TX 75201
214-969-1167
MEGAN.HORN@TKLAW.COM
KENNETH A. LAZARUS
LAZARUS & ASSOCIATES
1025 THOMAS JEFFERSON ST. NW
WASHINGTON, DC 20007
202-296-2330
LAZARUSLAW@AOL.COM
MICHAEL PEPSON
AMERICANS FOR PROSPERITY
1310 N. COURTHOUSE ROAD
SUITE 700
ARLINGTON, VA 22201
MPEPSON@AFPHQ.ORG
YAAKOV M. ROTH
JONES DAY
51 LOUISIANA AVE., NW
WASHINGTON, DC 20001
202-879-3939
YROTH@JONESDAY.COM

ILYA SHAPIRO
CATO INSTITUTE
1000 MASSACHUSETTS AVE., NW
WASHINGTON, DC 20001
202-21 8-4600
ISHAPIRO@CATO.ORG
PATRICK J. SMITH
IVINS PHILLIPS BARKER
1717K STREET, NW
SUITE 600
WASHINGTON, DC 20006
PSMITH@IPBTAX.COM
PATRICK STRAWBRIDGE
CONSOVOY MCCARTHY PLLC
TEN POST OFFICE SQUARE
8TH FLOOR SOUTH
PMB #706
BOSTON, MA 02109
617-227-0548
PATRTCK@CONSOVOYMCCARTHY.COM
ADAM R. WEBBER
ELLIOT, FAULKNER & WEBBER
4244 INDIAN RIPPLE RD.
SUITE 150
BEAVERCREEK, OH 45440
937-264-8710

